No. __________

In the

Supreme Court of the United States
ZACHERY PITTMAN,
Fayetteville Police Department,
Petitioner,

v.

HERMAN HARRIS,

Respondent.

-----------------------------------------On Pe ti tio n fo r W ri t o f C e r ti ora ri to
the U ni te d S ta te s C our t of A p pe a ls fo r
the Fo ur t h C i r cui t

------------------------------------------

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
------------------------------------------

D. Brandon Christian
(Counsel of Record)
NCLEAG, PLLC
N.C. STATE BAR NO.: 39579
P.O. Box 2917
Fayetteville, N.C. 28302
(910) 750-2265 Phone

James C. Thornton
CRANFILL SUMNER,
& HARTZOG LLP
N.C. STATE BAR NO.: 16859
Post Office Box 27808
Raleigh, N.C. 27611
(919) 828-5100 Phone
(919) 828-2277 Fax

Counsel for Petitioner

Counsel for Petitioner

GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

APPENDIX
TABLE OF CONENTS
Opinion
U.S. Court of Appeals For the Fourth Circuit
filed June 18, 2019 ...................................... 1a
Order
U.S. District Court for the
Eastern District of North Carolina
filed September 25, 2017........................... 42a
Order
U.S. Court of Appeals For the Fourth Circuit
filed July 10, 2019 ..................................... 60a

1a
[ENTERED JUNE 18, 2018]
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
__________________
No. 17-7308
__________________
HERMAN HARRIS,
Plaintiff - Appellant,
v.
ZACHARY PITTMAN,
Fayetteville Police Department,
Defendant - Appellee,
and
MOOSE BUTLER,
Defendant.
__________________
Appeal from the United States District Court for the
Eastern District of North Carolina, at Raleigh.
Terrence W. Boyle, Chief District Judge. (5:13-ct03087-BO)
__________________
Argued: January 30, 2019
Decided: June 18, 2019
__________________
Before WILKINSON, WYNN, and HARRIS, Circuit
Judges.
__________________

2a
Reversed and remanded by published opinion. Judge
Harris wrote the opinion, in which Judge Wynn
joined. Judge Wilkinson wrote a dissenting opinion.
__________________
ARGUED: Rafael Reyneri, COVINGTON &
BURLING LLP, Washington, D.C., for Appellant.
Donald
Brandon
Christian,
CITY
OF
FAYETTEVILLE, Fayetteville, North Carolina, for
Appellee. ON BRIEF: Richard Rainey, COVINGTON
& BURLING LLP, Washington, D.C., for Appellant.
James C. Thornton, CRANFILL SUMNER &
HARTZOG LLP, Raleigh, North Carolina, for
Appellee.
PAMELA HARRIS, Circuit Judge:
This is the second time we have addressed this §
1983 action, in which plaintiff Herman Harris alleges
that police officer Zachary Pittman used excessive
force in arresting him after an intense hand-to-hand
struggle between the men. Previously, we reversed
the district court’s grant of summary judgment to
Officer Pittman on qualified immunity grounds,
finding that the district court erred when it failed to
construe the evidence in the light most favorable to
Harris. On remand, the district court again held that
Pittman is entitled to qualified immunity as a matter
of law.
We must reverse for a second time. The district
court again based its qualified immunity holding on
inferences drawn in favor of Officer Pittman. But as
we held in our prior decision, the court was obligated
to construe the salient facts in the light most
favorable to Harris, as the party opposing summary
judgment. And on Harris’s version of the disputed

3a
facts, construed in the light most favorable to him, a
reasonable jury could find a violation of Harris’s
clearly established Fourth Amendment rights.
Because there remain genuine factual disputes
bearing on Pittman’s entitlement to qualified
immunity, the district court erred in awarding
summary judgment to Pittman.
I.
A.
This case centers around Officer Pittman’s use of
deadly force at the conclusion of a violent, hand-tohand struggle between Pittman and Harris. The
parties agree that Pittman shot Harris several times
at point-blank range. And Harris does not dispute
that Pittman’s first shot, into his chest, was justified
by the intensity of the struggle and the threat he
posed to Pittman’s safety. As we have held, however,
even where an initial use of deadly force is reasonable,
the repeated use of force may be constitutionally
excessive if circumstances change in a material way.
See Waterman v. Batton, 393 F.3d 471, 481 (4th Cir.
2005). And so the critical disagreement here is over
the precise circumstances under which Pittman fired
his final shots at Harris: whether, as Pittman says, a
deadly struggle was ongoing, with Harris standing
over Pittman, as Pittman fired; or whether, as Harris
has it, the struggle was over, with Harris lying on the
ground, wounded and unarmed, when Pittman stood
above him and fired two more shots into his chest and
leg.
The events leading up to this confrontation began
when a Fayetteville, North Carolina police officer
noticed a vehicle that had been reported stolen the
previous night. The officer alerted other officers in the

4a
area to be on the lookout for the suspects involved,
described as “early- to mid-teenage black males.” J.A.
237–38. One nearby officer spotted Harris, a then-38year-old black male whom the parties now agree had
no role in the reported vehicle theft. Nonetheless, the
officer “noticed that [Harris] was on his cell phone,
walking at a fast pace, sweating excessively and
appeared to be nervous.” J.A. 245. Further, according
to the officer, Harris “avoided eye contact and had
rapid head and hand movement.” Id. Based on this
information, the officer determined that Harris was
behaving suspiciously and turned his vehicle to
pursue Harris.
Harris began to run, and as he fled, he came into
Officer Pittman’s line of sight. Pittman got out of his
squad car and gave chase. According to Pittman, as
he gained on Harris, he threatened to use his taser on
Harris in an attempt to stop his flight. Harris
continued running, and Pittman eventually caught
him at the edge of a wooded bramble and tackled him
down a steep incline into some shrubs.
When the men came to a stop, a hand-to-hand
struggle ensued. Pittman attempted to use his taser
against Harris, and alleges that Harris tried to use
the taser against him as well. Both times, however,
the men were able to deflect the taser’s aim, and
though each felt the partial effects of the discharges,
Pittman “could not use the [t]aser to [his] advantage”
to effectuate Harris’s arrest and secure his own
safety. J.A. 241. The struggle continued to escalate,
and though the parties dispute who first reached for
Pittman’s firearm, the two men fought for control of
the gun. The gun fired while in Pittman’s holster, and
the bullet struck Harris’s right ring finger, severing
part of it.

5a
According to Pittman, Harris then wrestled the
gun away from Pittman, pointed it at Pittman’s face,
and pulled the trigger. But for a firearm malfunction,
Pittman says, Harris would have killed him. The gun
did not go off, however, and Pittman regained control
of the weapon. Pittman then fired the first of his
intentional shots at Harris, striking him in the chest.
As noted above, Harris does not argue that Pittman
lacked justification for this initial use of deadly force.
Thus, while Harris disputes some of the preceding
details, it is at this point that the parties’ narratives
diverge in ways most significant to this appeal. There
remains some overlap in their accounts: The parties
agree that Pittman now had full control over his
weapon, leaving Harris unarmed; Pittman does not
contend either that Harris was armed or that he
mistakenly believed him to be armed. And they agree
that Pittman continued to fire his gun at Harris. But
the parties vigorously dispute the factual
circumstances directly attendant to those final shots,
which form the basis for Harris’s excessive force
claim.
On Pittman’s account, there was no material
change in circumstances as he fired at Harris.
According to Pittman, once he regained control of his
firearm, he was lying on the ground and saw Harris
standing a few feet away. Fearing another attack,
Pittman “fired [his] weapon until [] Harris fell,”
consistent with training that had taught him to fire
until a perceived threat is eliminated. J.A. 242.
Although Pittman does not specify how many shots he
fired, he is adamant that he fired each at roughly the
same time and under the same circumstances:
Pittman was on the ground, and Harris was on his

6a
feet, presenting an imminent threat to Pittman’s life
and safety.
On Harris’s account, by contrast, Pittman fired
three shots, and the circumstances changed
significantly between the first shot and the second
two. According to Harris, Pittman’s initial shot, which
“hit[] him in his right chest area,” had “lift[ed] him off
his feet,” J.A. 379, so that he was lying on the ground
badly wounded. Pittman then got to his feet and stood
over Harris, who “was not trying to escape, nor . . .
showing any further resistance.” J.A. 329. And then,
Harris says, while he was lying bleeding and subdued
on the ground, Pittman shot him twice more, once in
the chest and then in the back of his left leg. The final
shot struck Harris in the left buttock, broke his femur
on the way through his body, and exited his body near
his groin, suggesting that Harris rolled onto his
stomach before Pittman fired for the last time.
B.
Harris initiated this § 1983 action against
Pittman, proceeding pro se – that is, without the
assistance of counsel – and alleging that Pittman used
excessive force against him in violation of his Fourth
Amendment rights. Pittman moved for summary
judgment, asserting qualified immunity as a defense.
The district court granted Pittman’s motion for
summary judgment. As the district court explained, a
defendant like Pittman is entitled to qualified
immunity at the summary judgment stage if (1) the
facts, viewed in the light most favorable to the
plaintiff – here, Harris – do not demonstrate a
violation of the plaintiff’s constitutional rights; or (2)
they do, but the relevant constitutional right was not
clearly established at the time of the alleged violation.

7a
J.A. 206–07; see also Waterman, 393 F.3d at 476.
Focusing on the first prong, the district court held
that Pittman had not violated Harris’s Fourth
Amendment rights because Pittman’s use of force was
objectively reasonable as a matter of law.
In making that determination, the district court
appeared to credit Pittman’s account of the immediate
circumstances under which he fired at Harris. As the
district court described the relevant facts, Pittman
regained control of his gun while he was lying on the
ground, and then, having turned on his gun light, saw
“Harris standing a few feet from him.” J.A. 208
(emphasis added). Able to see only a “partial
silhouette” of Harris, the district court went on,
“Pittman believed that Harris was still a threat and
his life was in danger.” Id. Still on the ground,
Pittman fired at the upright Harris and then, when
Harris did not fall, continued to fire. Under those
circumstances, the district court concluded, no
genuine dispute of material fact remained as to
whether Pittman’s use of force had been objectively
reasonable under the Fourth Amendment.
Harris appealed, and we reversed. See Harris v.
Pittman, 668 F. App’x 486 (4th Cir. 2016) (per
curiam). The parties’ “different versions of the salient
facts,” we held, gave rise to a material dispute over
“what occurred when Pittman fired the final shots at
Harris,” including “whether Harris was standing or
lying down.” Id. at 487. Instead of resolving that
dispute in Pittman’s favor at the summary judgment
stage, the district court was required to view the facts
“in the light most favorable” to Harris. Id. Its failure
to do so meant that the district court had not
answered the critical question in the case: “whether,
construing the facts in the light most favorable to

8a
Harris (i.e., Harris was lying on the ground when
Pittman, still on top of him, fired the final shots), a
reasonable officer would have probable cause to
believe that Harris posed a significant threat of death
or serious physical injury to the officer or others.” Id.
(citing Tennessee v. Garner, 471 U.S. 1, 3, 11–12
(1985) (describing Fourth Amendment standard for
use of deadly force)). Accordingly, we vacated the
grant of summary judgment and remanded with
instructions “to determine, in the first instance, if
construing the salient facts in the light most favorable
to Harris, Pittman is entitled to qualified immunity.”
Id.
On remand, the district court again granted
summary judgment to Pittman. This time, the court
assumed that Pittman was standing over Harris
when he fired the final shots. But even under those
circumstances, the court held, his use of force was
objectively reasonable as a matter of law. That the
final shots were (by assumption) fired while Pittman
was standing over Harris, the court reasoned, did not
render them unreasonable, given record evidence
“that the shots were fired in rapid succession” and the
preceding “relentless” attacks on Pittman by Harris,
“even after [Harris was] struck by a taser.” J.A. 393.
And “[n]otably,” the court concluded, “from the
location of [Harris’s] wounds, it appears that Pittman
intended his shots only to disable [Harris].” Id.
Because Harris’s own assertions did not establish
a constitutional violation, the court held, Pittman was
entitled to summary judgment under the first prong
of the qualified immunity analysis. And in any event,
the court continued, Pittman would be entitled to
summary judgment under the second prong, because
even if Harris could establish a violation of his Fourth

9a
Amendment right to be free of excessive force, that
right was not clearly established with the requisite
specificity at the time of the incident.
Harris timely noticed this appeal and again
submitted uncounseled and informal briefing. We
appointed counsel for Harris, who filed a brief on his
behalf, and heard argument in the case.
II.
On appeal, Harris argues that the district court
erred by failing to follow this court’s mandate and
construe the evidence in the light most favorable to
him on summary judgment. According to Harris,
when viewed under the proper standard – construed
in the light most favorable to him, with all reasonable
inferences drawn in his favor – the record evidence
would allow a reasonable jury to find that Pittman
violated his clearly established constitutional rights.
We agree.
Our holding is a narrow one. How an ultimate factfinder might weigh and evaluate the parties’ accounts
and the other evidence in this case is not the question
before us. The only issue on appeal is whether, at this
early stage of the litigation and before a jury has had
a chance to assess witness credibility and other
evidentiary issues, it can be said that Pittman is
entitled to qualified immunity as a matter of law. We
conclude that genuine factual disputes bearing
directly on Pittman’s qualified immunity defense
preclude the award of summary judgment, and
therefore reverse the judgment of the district court.
A.
Harris alleges a violation of his rights under the
Fourth Amendment, which “guarantees citizens the

10a
right ‘to be secure in their persons . . . against
unreasonable . . . seizures.’” Graham v. Connor, 490
U.S. 386, 394 (1989) (quoting U.S. Const. amend. IV).
The Fourth Amendment’s bar on unreasonable
seizures prohibits the use of excessive force by a police
officer in effectuating an arrest. Clem v. Corbeau, 284
F.3d 543, 549–50 (4th Cir. 2002).
To determine whether an officer’s use of force is
excessive, we apply a “standard of objective
reasonableness.” Id. at 550. In this case, the parties
agree that Pittman used deadly force against Harris
when he fired repeatedly at Harris at point-blank
range. Because the “intrusiveness of a seizure by
means of deadly force is unmatched,” a police officer
may use deadly force only if the officer has “probable
cause to believe that [a] suspect poses a threat of
serious physical harm, either to the officer or to
others.” Waterman, 393 F.3d at 477 (quoting Garner,
471 U.S. at 9, 11).
Harris does not dispute that this standard was
satisfied when Pittman fired his first intentional shot
at him, during an intense hand-to-hand struggle.
Instead, Harris focuses on Pittman’s final two shots,
invoking case law establishing that even when an
initial use of force is objectively reasonable,
subsequent applications of force – even moments later
– may not be. Because the inquiry into excessiveness
turns on “the information possessed by the officer at
the moment that force is employed,” “force justified at
the beginning of an encounter is not justified even
seconds later if the justification for the initial force
has been eliminated.” Id. at 481 (citing Elliott v.
Leavitt, 99 F.3d 640, 643 (4th Cir. 1996)). It follows,
we held in Brockington v. Boykins, 637 F.3d 503, 507–
08 (4th Cir. 2011), that even where an officer

11a
originally was justified in shooting at a suspect, the
use of deadly force became objectively unreasonable
once the suspect, disabled by the officer’s initial shots,
fell to the ground.
B.
With that legal standard in mind, we turn to the
district court’s treatment of the record in evaluating
Pittman’s motion for summary judgment. It is
axiomatic that in deciding a motion for summary
judgment, a district court is required to view the
evidence in the light most favorable to the nonmovant –
here, Harris – and to draw all reasonable inferences
in his favor. See Jacobs v. N.C. Admin. Office of the
Courts, 780 F.3d 562, 568 (4th Cir. 2015).
Importantly, that obligation does not give way to a
court’s doubts about the credibility of a nonmoving
party’s account. A district court may not “weigh the
evidence or make credibility determinations,” id. at
569, and is not in a position “to disregard stories that
seem hard to believe,” Gray v. Spillman, 925 F.3d 90,
95 (4th Cir. 1991). Instead, the district court was
required to construe the record evidence favorably to
Harris, even if it did not believe that Harris
ultimately would prevail at trial. See Jacobs, 780 F.3d
at 568 (district court may not grant summary
judgment “merely because the court believes that the
movant will prevail if the action is tried on the merits”
(internal quotation marks omitted)).
We review de novo the district court’s grant of
summary judgment. Lee v. Town of Seaboard, 863
F.3d 323, 327 (4th Cir. 2017). And here, we analyze
the district court’s decision not only against the
record, but also for conformity to the mandate we
issued in our earlier ruling in this case. See Doe v.

12a
Chao, 511 F.3d 461, 464–65 (4th Cir. 2007). In that
earlier ruling, we identified a genuine and material
dispute of fact as to “what occurred when Pittman
fired the final shots at Harris,” particularly “whether
Harris was standing or lying down.” Harris, 668 F.
App’x at 487. It followed, we held, that the district
court was obliged to accept Harris’s version of events –
“i.e., Harris was lying on the ground when Pittman,
still on top of him, fired the final shots” – and consider
whether, on those facts, a “reasonable officer would
have probable cause to believe that Harris posed a
significant threat of death or serious physical injury
to the officer or others.” Id. (citing Garner, 471 U.S. at
3, 11–12).
1.
Consistent with our instruction, the district court
on remand specifically addressed Harris’s allegation
that at the time of the final two shots, Pittman was
standing above Harris, who was lying wounded on the
ground. 1
Even under those circumstances, the
district court concluded, there could be no Fourth
Amendment violation: As a matter of law, Pittman
reasonably believed that Harris remained a threat to
his safety, satisfying the Garner standard. In
reaching that determination, however, the district
court improperly drew inferences in favor of Pittman,
rather than Harris, and appears to have
The district court referred to the final “shot,” singular, J.A. 393,
while Harris’s account alleges that, of the three shots Pittman
intentionally fired at Harris, both the second and third were
fired at him after he had fallen to the ground. See Harris, 668 F.
App’x at 487 (referring to final “shots,” plural). Nothing in the
district court’s analysis, however, appears to turn on this
distinction.

1

13a
misapprehended both our mandate and our circuit’s
governing law.
We may dispense quickly with one of the three
rationales offered by the district court for its
conclusion: that “from the location of plaintiff’s
wounds, it appears that Pittman intended his shots
only to disable plaintiff,” J.A. 393. Harris suffered
four gunshot wounds, three of which were inflicted
intentionally: two wounds to Harris’s chest, and a
third to the back of his leg that broke his femur and
narrowly missed his femoral artery. To conclude that
this pattern of wounds reflects an intent “only to
disable” is to draw an inference – and a heroic one –
in favor of Pittman, not Harris, in violation of basic
summary judgment principles. And it has nothing to
do with the legal question of whether Pittman’s final
two shots were justified. Whatever his motives,
Pittman used deadly force when he fired his gun at
Harris; what matters is whether he had objectively
reasonable grounds for doing so under Garner, not
whether he expected or hoped that Harris could
survive the shooting. See Elliott, 99 F.3d at 642
(“intent or motivation of the officer is irrelevant” in
evaluating use of deadly force).
In holding that Pittman’s final shots were justified
even if Harris by then was lying on the ground
wounded, the district court also relied on a finding
that “the record reflects that the shots were fired in
rapid succession.” J.A. 393. In support, the court cited
the affidavits of two Fayetteville police officers,
recounting what they were told by two auditory
witnesses – witnesses who did not see the events in
question but heard the gunshots. Both witnesses,
according to the officers, heard substantially the same
thing: a gunshot (presumably the accidental

14a
discharge during the struggle for Pittman’s holstered
gun), followed “[a]fter about a 30-second pause” by
“three more gun shots and someone yelling,” J.A. 252
– or, for the other witness, followed “[a] few seconds
later” by additional shots, J.A. 259–60.
The district court did not explain what
significance it was attaching to its determination that
Pittman fired his shots at Harris in “rapid
succession.” One possibility is that the court perceived
an inconsistency between three shots fired in “rapid
succession” and Harris’s version of events, in which
there was time between the first and second of these
shots for Harris to fall to the ground and Pittman to
get to his feet. But that, too, would require drawing
inferences in Pittman’s favor and against Harris. The
witness statements focus on the temporal gap
between the first (accidental) discharge and the
subsequent (intentional) firings; they do not specify
the time elapsed between each of the final three shots.
And while the statements do suggest that those shots
were clustered together in relation to the previous
discharge, that does not foreclose the possibility that
there still was time enough between the first two
intentional shots for Harris to fall and Pittman to
regain his footing. Only by drawing inferences against
Harris rather than in his favor could the court have
found a conflict between the witness statements and
Harris’s account. 2
All of this assumes, of course, the admissibility and credibility
of the affidavits and the second-hand accounts they contain. An
affidavit used to support or oppose a motion for summary
judgment generally “must be made on personal knowledge,” Fed.
R. Civ. P. 56(c)(4), which these affidavits – consisting of police
officers’ summaries of witness statements – are not. And even if
there were an actual conflict between admissible affidavits and
2

15a
Moreover, the question before the district court, as
laid out expressly in our mandate, was whether,
assuming Harris’s version of events – specifically,
that “Harris was lying on the ground when Pittman,
still on top of him, fired the final shots” – those final
shots were justified under the Fourth Amendment.
Harris, 668 F. App’x at 487. Pointing to record
evidence that might, construed in Pittman’s favor,
suggest that Pittman and not Harris was lying on the
ground cannot answer that question, and it is not
responsive to the mandate from our prior decision. See
Doe, 511 F.3d at 465 (district court may not reconsider
questions resolved by an appellate court’s mandate).
The other possibility is that the district court
reasoned that because the shots were fired in “rapid
succession,” they should be analyzed collectively and
as one sequence, so that the conceded justification for
the first shot would extend to the final two as well.
But any such rationale would be inconsistent with our
case law, which rejects precisely this approach and
instead insists that “the reasonableness of force
employed can turn on a change of circumstances
during an encounter lasting only a few seconds,”
Waterman, 393 F.3d at 481 (rejecting argument that
reviewing subsequent shots separately from initial
shot draws “artificial divisions in the sequence of
events” (internal quotation marks omitted)). That
shots are fired in “rapid succession,” in other words,
is not enough to establish, as a matter of law, that the
risk of physical harm to Pittman that supported the
first shot still existed at the time of the second and
third – when, by hypothesis, Harris, having been
Harris’s account, it would be up to a fact-finder to assess
credibility and weigh the evidence.

16a
struck in the chest by the first shot, was lying on the
ground wounded and unarmed. See Brockington, 637
F.3d at 507 (“pars[ing]” sequence of shots and finding
that safety risk that justified initial shots did not
justify subsequent shots once suspect, wounded, had
fallen to ground).
That leaves the district court’s third and last
rationale: that Pittman’s final shots were reasonable
as a matter of law even if he was standing over a
prone Harris because Harris’s attack on Pittman had
been “relentless,” continuing “after [Harris] was
struck by a taser on two occasions.” J.A. 393. Here,
the district court appears to be reasoning that Harris
demonstrated unusual persistence and endurance in
his struggle with Pittman, making it reasonable for
Pittman to believe that Harris remained a threat
while lying on the ground wounded and unarmed,
with Pittman above him holding a gun. See J.A. 393–
94 (“[T]he record reflects that Pittman reasonably
believed that plaintiff would continue to attack
Pittman at all costs.”). But even if a jury could draw
this inference in Pittman’s favor, the district court on
summary judgment could not. See Jacobs, 780 F.3d at
568 (district court must draw all reasonable
inferences in favor of nonmovant at summary
judgment stage).
On Harris’s account, which has him “lift[ed] . . . off
his feet” and thrown to the ground by Pittman’s first
shot to his chest, J.A. 379, a reasonable jury could find
that it would have been evident to Pittman, at least
once he regained his footing and stood over Harris
with his gun, that Harris was badly wounded and
subdued. Pittman acknowledges turning on his gun
light before opening fire, suggesting he had the
opportunity to observe Harris’s condition as he fired

17a
the final shots. Nor, again, does Pittman allege that
he believed Harris to be armed at that point. And
viewed most favorably to Harris, the evidence
suggests that by the time of the final shot – which, he
says, struck him in the left buttock and exited his
body near his groin – Harris had rolled over and was
lying with his face in the ground. Against all of this,
the district court seems to have concluded that Harris
showed himself to be uniquely threatening when he
proved impervious to two prior taser strikes – but that
is yet another inference improperly drawn in
Pittman’s favor, given Pittman’s own account of
finding himself unable to deploy his taser effectively
against Harris. On this point, in other words, the
district court again erred by drawing inferences in
favor of Pittman, when the opposite is required on
summary judgment.
2.
On appeal, Pittman does not defend the district
court’s answer to the question we posed in our
mandate: “whether, construing the facts in the light
most favorable to Harris (i.e., Harris was lying on the
ground when Pittman, still on top of him, fired the
final shots), a reasonable officer would have probable
cause to believe that Harris posed a significant threat
of death or serious physical injury,” Harris, 668 F.
App’x at 487. Instead, he rejects the premise – and
with it, our mandate – arguing for the first time that
Harris’s account should not be credited on summary
judgment, primarily because it is “blatantly
contradicted by the record” and thus fails to create a
genuine dispute of fact under Scott v. Harris, 550 U.S.
372, 380 (2007). Even if this argument were not
foreclosed by the mandate rule that precluded

18a
Pittman from raising it before the district court, see
Doe, 511 F.3d at 465, we would find it unpersuasive.
In Scott v. Harris, which also involved a Fourth
Amendment excessive force claim, the Supreme Court
was faced with a videotape of the incident in question
that “utterly discredited” the plaintiff’s account,
rendering it a “visible fiction.” 550 U.S. at 380–81. As
between a videotape of undisputed authenticity, id. at
378, and the plaintiff’s story, the Court held, the
videotape should prevail. Where the nonmoving
plaintiff’s account is “blatantly contradicted by the
record” so that “no reasonable jury could believe it,” it
should not be adopted by a court ruling on a motion
for summary judgment. Id. at 380.
As we have clarified, Scott is the exception, not the
rule. It does not “abrogate the proper summary
judgment analysis, which in qualified immunity cases
‘usually means adopting . . . the plaintiff’s version of
the facts.’” Witt v. W. Va. State Police, Troop 2, 633
F.3d 272, 276 (4th Cir. 2011) (quoting Scott, 550 U.S.
at 378). That standard continues to apply in the face
of “documentary evidence” that lends support to a
government official’s account of events, id., or even
makes it “unlikely” that the plaintiff’s account is true,
United States v. Hughes, 606 F.3d 311, 319–20 (6th
Cir. 2010) (holding that Scott does not apply to
photographs rendering plaintiff’s account “unlikely”).
Summary judgment is proper under Scott only when
there is evidence – like the videotape in Scott itself –
of undisputed authenticity that shows some material
element of the plaintiff’s account to be “blatantly and
demonstrably false.” Blaylock v. City of Phila., 504
F.3d 405, 414 (3d Cir. 2007) (refusing to extend Scott
to evidence in form of police photographs that fail to
depict “all of the defendant’s conduct and all of the

19a
necessary context”); see also Witt, 633 F.3d at 277
(holding Scott inapplicable to soundless video that
does not capture key disputed facts).
The Scott principle has no application here. That
is perhaps clearest with respect to Pittman’s reliance
on police officer affidavits recounting the statements
of auditory witnesses to the shootings. According to
Pittman, those statements, because they fail to
describe a “meaningful pause” between shots,
“blatantly contradict” Harris’s account, just as the
video in Scott v. Harris “blatantly contradicted” the
plaintiff’s account in that case. We have discussed
already the absence of any necessary conflict between
the witness statements and Harris’s version of events.
More important here, second-hand descriptions by
police officers of the impressions of witnesses who
heard but did not see the crucial events are a far cry
from an authentic videotape that “depict[s] all of the
defendant’s conduct and all of the necessary context
that would allow the [c]ourt to assess the
reasonableness of that conduct,” Blaylock, 504 F.3d at
414 (describing Scott video and distinguishing two
police photographs). Affidavits that “offer[] some
support for a governmental officer’s version of events”
are a routine feature of excessive force cases, and they
do not justify a departure from the normal summary
judgment standard. Witt, 633 F.3d at 276.
Pittman points to two other forms of evidence that
he contends “blatantly contradict” Harris’s account:
DNA evidence indicating the presence of Harris’s
DNA on Pittman’s gun; and post-altercation
photographs showing bruises and scratches on
Pittman’s face, hands, and legs. But none of that
evidence actually contradicts, blatantly or otherwise,
Harris’s crucial contention on summary judgment: that

20a
after a hand-to-hand struggle over Pittman’s gun –
which would account for Pittman’s injuries, and
during which Harris admits he reached for Pittman’s
gun, though he claims to have done so defensively –
Pittman gained control over the weapon, used it to
shoot Harris once in the chest, and then, after Harris
fell to the ground badly wounded, stood over Harris
and shot him twice more. Pittman’s evidence, in other
words, runs out at precisely the moment the parties’
accounts critically diverge, and thus cannot establish
that Pittman is entitled to summary judgment under
Scott v. Harris. See Witt, 633 F.3d at 277 (declining to
apply Scott to soundless video that “fails to capture
seven important seconds of the incident, about which
the parties’ accounts decidedly differ”). 3
Finally, there is the last piece of evidence on which
Pittman relies to show that the record “blatantly
contradicts” Harris’s version of events: the summary
of facts accompanying Harris’s state court Alford
plea. After the events at issue here, Harris faced
multiple charges in North Carolina, including one for
assaulting a law enforcement officer (Pittman) with a
firearm, and one for possession of a firearm (Pittman’s
gun) by a felon. Harris responded by entering an
Alford plea, which allows a defendant to “proclaim[]
he is innocent” but “intelligently conclude[] that his
interests require entry of a guilty plea,” where the
“record before the judge contains strong evidence of
Pittman also suggests that this DNA and photographic
evidence contradicts some of Harris’s earlier statements about
the encounter, in which he denied touching Pittman’s gun or
engaging in an intense struggle with Pittman. Whether there
are meaningful discrepancies between Harris’s various accounts
of events and, if so, what bearing they have on Harris’s ultimate
credibility, are questions to be assessed by a finder of fact.

3

21a
actual guilt,” United States v. Davis, 679 F.3d 177,
186 (4th Cir. 2012) (internal quotation marks
omitted). The “distinguishing feature” of an Alford
plea is that “the defendant does not confirm the
factual basis” for his plea; the statement of facts
accompanying an Alford plea is not intended to
establish guilt but to “ensure merely that the plea is
being intelligently entered.” United States v. Taylor,
659 F.3d 339, 347 (4th Cir. 2011) (internal quotation
marks and alteration omitted).
According to Pittman, the state prosecutor’s
summary of facts, to which Harris consented,
“blatantly contradicts” Harris’s critical assertion that
he was lying on the ground when Pittman fired his
final shots. It follows, Pittman concludes, that Scott v.
Harris precludes a court from crediting Harris’s
account on summary judgment. Pittman cites no
cases applying Scott v. Harris in this context, and we
have found none. In any event, we cannot agree that
the summary of facts that accompanied Harris’s
Alford plea “blatantly contradicts” Harris’s account.
Not surprisingly, the prosecutor’s summary
focused on the facts underlying the actual charges
against Harris, describing in detail the struggle for
control of Pittman’s weapon, Harris’s temporary
possession of the gun, and Harris’s attempt to fire the
gun point-blank at Pittman. The precise
circumstances under which Pittman fired at Harris
are the subject of less attention. According to the
prosecutor, once Pittman took control of his weapon,
he was able to “discharge[] his firearm” at a thenstanding Harris, after warning Harris to “get down.”
J.A. 168. The rest is a brief and undifferentiated
account of Pittman’s intentional shots: “The [o]fficer
discharged his weapon striking the defendant

22a
multiple times” in the torso area and leg. J.A. 168–69.
As the prosecutor explained, although there was “lots
more evidence,” his summary was intended to
establish only what was material to the charges
against Harris: that Harris “possessed [Pittman’s
firearm] for long enough to pull that weapon, pull that
trigger.” J.A. 169.
We discern no “blatant contradiction” between the
prosecutor’s summary of facts and the account Harris
advances on summary judgment. Because they were
not material to the charges against Harris, the state
prosecutor did not dwell on the precise circumstances
surrounding Pittman’s final shots at Harris, the crux
of Harris’s § 1983 action. Most important, the
prosecutor did not specify whether all of Pittman’s
shots were fired while Harris was standing, or only
the first intentional shot – meaning that his account
can be reconciled with Harris’s, which also has Harris
standing when the shooting begins. See Witt, 633 F.3d
at 277 (declining to apply Scott to “ambiguous”
evidence). Moreover, at the plea hearing, Harris’s
counsel noted for the record that Harris was disputing
some of the details in the prosecutor’s account. J.A.
171 (noting that Harris disputed “his actual
possession or control over the firearm and some of the
other instances relating to the struggle that did
ensue”). Harris’s plea colloquy thus does not foreclose
his account of the critical events. And because there
is no record evidence that “blatantly contradicts”
Harris’s account under Scott, we apply our normal
summary judgment standard for qualified immunity

23a
cases, “adopting . . . the plaintiff’s version of the facts,”
Witt, 633 F.3d at 276 (quoting Scott, 550 U.S. at 378). 4
In addition to his argument under Scott, Pittman
offers an alternative justification for going beyond our
mandate and refusing to adopt Harris’s account in
evaluating the reasonableness of Pittman’s use of
force: According to Pittman, doing so would require
invalidating Harris’s state court conviction,
something a federal court may not do under Heck v.
Humphrey, 512 U.S. 477 (1994). This argument – also
raised for the first time on appeal – is without merit.
Nothing about Harris’s § 1983 suit calls into question
his North Carolina judgment of conviction on charges
of assaulting Officer Pittman while in possession of
Pittman’s gun. Harris would remain guilty on those
charges even if Pittman were found to have used
excessive force when he arrested Harris following
Harris’s commission of his crimes.
In sum, there is no ground in this case for
departing from the standards that generally govern a
motion for summary judgment based on a qualified
immunity defense. As we explained in our prior
ruling, those standards require a district court to view
the facts in the light most favorable to the plaintiff
and to draw all reasonable inferences in the plaintiff’s
favor. Harris, 668 F. App’x at 487. And although the
district court assumed that the final shots were fired
while Pittman was standing over Harris, in holding
that Pittman’s use of deadly force nevertheless was
The parties also dispute whether Harris’s Alford plea has
preclusive effect in this § 1983 action, independent of Pittman’s
argument under Scott v. Harris. Because we find no conflict
between the summary of facts accompanying Harris’s Alford
plea and Harris’s account in this action, we need not resolve that
question.
4

24a
reasonable as a matter of law it drew a series of
inferences in favor of Pittman, not Harris, and
overlooked record evidence that could support
Harris’s claim. 5 Accordingly, we find that the district
court erred in granting summary judgment by failing
to construe the evidence in the light most favorable to
Harris.
C.
Having determined that the district court erred in
its analysis, we must now consider whether,
construing the salient facts in the light most favorable
to Harris, Pittman is entitled to qualified immunity
as a matter of law. Harris argues that when the
record is viewed in the light most favorable to him, he
can show that Pittman’s final two shots, fired while
Harris was lying on the ground wounded and
unarmed, violated his Fourth Amendment rights, and
that those rights were clearly established at the time
of the incident. We agree, and reverse the district
court’s contrary finding.

5 The district court also suggested that Harris had not produced
competent evidence to support this part of his account because
he relied on “unverified documents.” J.A. 392. In fact, Harris’s
opposition to Pittman’s summary judgment motion was verified,
and a party opposing summary judgment may rely on verified
filings. See Williams v. Griffin, 952 F.2d 820, 823 (4th Cir. 1991)
(explaining that courts treat verified pleadings as “the
equivalent of an opposing affidavit for summary judgment
purposes, when the allegations contained therein are based on
personal knowledge”). And our prior ruling, of course, was
premised on the conclusion that Harris indeed had established a
genuine dispute of fact as to “whether Harris was standing or
lying down,” requiring the district court to assume on remand
“Harris was lying on the ground when Pittman, still on top of
him, fired the final shots.” Harris, 668 F. App’x at 487.

25a
In assessing Pittman’s qualified immunity
defense, this court applies a familiar two-step inquiry.
Saucier v. Katz, 533 U.S. 194, 201 (2001); see also
Pearson v. Callahan, 555 U.S. 223, 236 (2009) (granting
courts the discretion as to order in which two steps are
addressed). At step one, we ask “whether the facts alleged
or shown, taken in the light most favorable to the plaintiff,
establish that the police officer’s actions violated a
constitutional right.” Meyers v. Balt. Cty., 713 F.3d 723,
731 (4th Cir. 2013). At step two, the question is whether
the right at issue was “clearly established” at the time of
the officer’s conduct. Id. (quoting Saucier, 533 U.S. at 201).

We begin with the first prong, on which the district
court primarily relied: whether Pittman’s alleged
conduct violated Harris’s Fourth Amendment right to
be free of excessive force in the making of an arrest.
Harris claims that once he had been knocked to the
ground with a gunshot wound to his chest, the
justification for Pittman’s initial shot – the threat
posed to Pittman by Harris as they struggled for
control of his weapon – was neutralized. At that point,
he argues, a “reasonable officer” no longer “would
have probable cause to believe that Harris posed a
significant threat of death or serious physical injury,”
Harris, 668 F. App’x at 487 (citing Garner, 471 U.S.
at 3, 11–12), rendering Pittman’s final two shots
objectively unreasonable and thus constitutionally
excessive.
Viewing the record in the light most favorable to
Harris, we think a reasonable jury could reach just
that conclusion. We took the same view in Waterman,
in which an extended highway chase ended with
police officers firing a series of shots at the plaintiff’s
vehicle as it accelerated toward them and then passed
them, killing the plaintiff. 393 F.3d at 473–75. The

26a
officers’ initial shots, we held, were constitutionally
justified, and no reasonable jury could find to the
contrary: As the vehicle approached, the officers had
an objectively reasonable belief that it “posed an
immediate threat of serious physical harm” to them.
Id. at 477–79. But the situation changed, we
reasoned, “mere seconds” later, once the vehicle
passed the officers and the officers continued to fire
after it. Id. at 480–82. At that point, the record
evidence, viewed in the light most favorable to the
plaintiff, would allow a reasonable jury to find that
the officers “knew or should have known” that the
plaintiff had passed them without veering in their
direction, and that “any belief that the officers
continued at that point to face an imminent threat of
serious physical harm would be unreasonable.” Id. at
482.
So too here. Harris does not dispute that Pittman’s
first intentional shot, fired when Pittman regained
control of his weapon during a hand-to-hand struggle
with Harris, was justified by an objectively
reasonable belief that Harris posed a very serious
threat to Pittman’s safety. But on Harris’s account,
which we credit at this stage of the litigation,
circumstances changed after that first shot, which
struck Harris in the chest, “lift[ed] him off his feet,”
and threw him to the ground. J.A. 379. At that point,
according to Harris, Pittman got to his feet and took
aim at Harris, now lying on the ground wounded,
unarmed, and “not trying to escape . . . [or] showing
any further resistance,” J.A. 329, before firing two
more shots into his chest and the back of his leg.
Viewing the evidence in the light most favorable to
Harris – including Pittman’s own statement that he
had turned on his gun light, and evidence suggesting

27a
that Harris rolled onto his stomach before Pittman
fired for the final time – a reasonable jury could find
that Pittman “knew or should have known” that
Harris no longer posed an imminent threat to his
safety that justified the further use of deadly force. Cf.
Waterman, 393 F.3d at 482.
And Waterman is not our last word on this subject.
In Brockington v. Boykins, we applied Waterman’s
logic to a situation closely resembling the one at issue
here. That excessive force case, like this one, began
with a confrontation between the plaintiff and a police
officer, sufficiently serious that the plaintiff
ultimately was convicted on criminal charges in state
court – there, for kidnapping the officer. 637 F.3d at
504–05. And as in this case, the plaintiff did not
dispute that when the officer fired on him initially,
hitting him in his hand and his abdomen, that use of
deadly force was justified. Id. at 507. The issue – just
as here – was that the officer allegedly continued to
shoot down at the plaintiff, even after the plaintiff,
wounded by the initial shots, had fallen to the ground,
unarmed. We affirmed the denial of the officer’s
motion to dismiss on qualified immunity grounds.
That the officer’s shots were all part of a single series,
with the initial shots concededly justified, did not
establish that the final shots were justified as well;
instead, we found, “it is possible to parse the sequence
of events as they occur.” Id. Drawing all inferences in
favor of the plaintiff, we reasoned, his account, if
credited, would substantiate a Fourth Amendment
violation: “There is no indication that deadly force
was necessary or reasonable once [the plaintiff] was
initially shot, thrown to the ground by the force of the
bullets, and wounded.” Id. (citing Garner, 471 U.S. at
9–11).

28a
That analysis governs here. Accepting Harris’s
account and drawing all inferences in his favor, as we
must, Pittman – just like the officer in Brockington –
would have known that Harris was lying on the
ground wounded and unarmed at the time of the final
two shots. See id. (“drawing all inferences in favor of
[the plaintiff],” it would have been apparent to the
officer that the plaintiff was wounded and unarmed).
And at that point, “[r]ather than shoot [Harris] as he
lay helpless on the ground, a reasonable police officer
would have asked him to surrender, called for backup
or an ambulance, or retreated,” id. In sum, under
Brockington, as well as Waterman, the facts alleged
by Harris, taken in the light most favorable to him,
would allow a reasonable jury to find a violation of his
constitutional rights, satisfying the first prong of the
qualified immunity analysis. See Meyers, 713 F.3d at
731.
That leaves us with the district court’s alternative
holding, under the second prong of the analysis: that
even if Pittman could be found to have violated
Harris’s right to be free of excessive force, Pittman is
entitled to qualified immunity because that right was
not “clearly established” with sufficient specificity at
the time of the incident. See id. We disagree.
The cases on which we rely above, laying out the
rule that governs here, were decided in 2005
(Waterman) and 2011 (Brockington), before the 2012
events of this case. Since 2005, it has been established
that “an imminent threat of serious physical harm to
an officer is not sufficient to justify the employment of
deadly force seconds after the threat is eliminated if a
reasonable officer would have recognized when the
force was employed that the threat no longer existed.”
Waterman, 393 F.3d at 482 (emphasis added). Six

29a
years later, in Brockington, we held that the
Waterman rule was sufficiently specific to “clearly
establish[]” the right of a suspect, once shot by an
officer and lying wounded on the ground, not to be
shot again. Brockington, 637 F.3d at 508. And
although an exact factual match is not required to
overcome a qualified immunity defense, see Hope v.
Pelzer, 536 U.S. 730, 741 (2002), Brockington
certainly comes close: Under Brockington, it is clear
that even a police officer who has just survived a
harrowing encounter that necessitated the use of
deadly force to extricate himself may not continue to
use deadly force once he has reason to know that his
would-be assailant is lying on the ground wounded
and unarmed, 637 F.3d at 507–08. This is not a case,
in other words, in which an officer would be required
to reason backward from case law “at a high level of
generality” to determine whether his conduct violated
a constitutional right. Cf. Ashcroft v. al-Kidd, 563
U.S. 731, 742 (2011). Here, “pre-existing law makes
the unlawfulness” of the conduct in question – as
alleged by Harris, and drawing all reasonable
inferences in Harris’s favor – “‘apparent.’” Clem, 284
F.3d at 553 (quoting Anderson v. Creighton, 483 U.S.
635, 640 (1987)). 6
In reaching the opposite result, the district court discussed
neither Waterman nor Brockington. Instead, it relied on a series
of cases involving suspects who were wounded or fallen but also
armed or thought to be armed when the police continued
shooting. See J.A. 395 (citing Elliott, 99 F.3d at 641, 644;
Maradiaga v. Wilson, 518 F. Supp. 2d 760, 775 (D.S.C. 2007);
and Estate of Rodgers ex rel. Rodgers v. Smith, 188 F. App’x 175,
183 (4th Cir. 2006)). But as we explained in Brockington itself,
such cases – and we mentioned Estate of Rodgers specifically –
do not govern where, as here, “[i]n drawing all inferences in favor
of [the plaintiff], he was unarmed and this fact was apparent,”
6

30a
In so holding, we are cognizant of the reality that
“police officers are often forced to make split-second
judgments – in circumstances that are tense,
uncertain, and rapidly evolving,” Graham, 490 U.S. at
397. This is a case in point; even on Harris’s account,
and certainly on Pittman’s, Officer Pittman was faced
with a genuine and no doubt terrifying threat to his
safety during his struggle with Harris. We do no more
today than reiterate what this court repeatedly has
held: that even where deadly force initially is justified
by a significant threat of death or serious physical
injury, a police officer may not continue to employ
deadly force when the circumstances change so as to
eliminate the threat. Applying that principle to this
case, we conclude that Pittman is not entitled to
qualified immunity on summary judgment.
This conclusion, of course, does not mean that
Harris “will prevail if the action is tried on the
merits,” Jacobs, 780 F.3d at 568 (internal quotation
marks omitted). That decision is not ours – or the
district court’s – to make at this juncture. Instead, we
hold only that there remain genuine disputes of
material fact bearing on Pittman’s qualified
immunity defense, and that summary judgment
therefore is not appropriate on this record. 7
so that the justification for the initial use of force had been
eliminated. 637 F.3d at 507. Nothing about those cases, in other
words, conflicts with Waterman or Brockington, or undermines
the clarity of the rule those precedents establish.
We note that Harris on several occasions moved in the district
court for the appointment of counsel. In his informal brief before
this court, Harris appealed the district court’s denial of his most
recent motion. Although Harris’s counseled brief did not re-raise
this issue, we encourage the district court on remand to consider
appointing counsel for Harris to assist in the litigation of the
7

31a
III.
For the foregoing reasons, we reverse the
judgment of the district court granting summary
judgment and remand for further proceedings
consistent with this opinion.
REVERSED AND REMANDED
WILKINSON, Circuit Judge, dissenting:
This dispute began when Herman Harris fled from
Officer Zachary Pittman, after repeatedly being told
to stop. Pittman caught up to Harris at the edge of a
tree line and both men fell many feet down into the
woods. In the ensuing struggle, the suspect fought off
a taser and repeatedly struck Pittman. As Harris
later admitted in a guilty plea for this assault, he
tried to shoot Pittman in the head with Pittman’s gun.
Both men sustained serious injuries. When the
altercation ended, Officer Pittman’s face was
lacerated, his hands were bleeding, taser wire covered
the forest floor, and parts of Pittman’s uniform and
gun holster were destroyed. Harris was shot multiple
times. Only a few minutes passed between the time
that Officer Pittman first announced his presence and
the time he emerged injured from the woods.
The majority shaves this incident oh so fine,
parsing and segmenting the encounter almost second
by second, ultimately finding that Pittman’s efforts to
save his life in the final moments of the altercation
were excessive. Sadly for the majority, the action here
spun by; the struggle allowed the combatants no time
for a coffee break. In the majority’s view, if a suspect
case. See Brooks v. Johnson, ___ F.3d ___, 2019 WL 2063365, at
*13 n.9 (4th Cir. May 10, 2019).

32a
lands a punch in one moment, drags you to the ground
the next, and goes for your gun a second later, a
reasonable officer must shed any attempt to preserve
his own life if, in the course of the ongoing fight, the
officer gains so much as a fleeting advantage.
It was much to be hoped that the majority would
understand the difference between a struggle in
which life and death hinged on an instant and the
leisured contemplation brought to events years later.
To the best of my knowledge, the majority was not
present at the scene. The majority was not tumbling
down a wooded ravine in the dark of night. The
majority was not alone, fighting a person who had
disregarded clear warnings, fled arrest, fought
through a taser, and tried to grab its gun. The
majority did not struggle to regain its weapon while
lying beaten and bloodied on the ground. And the
majority did not fear for its life when that weapon was
ultimately used to stop the assault. The law of
qualified immunity does not allow us to ignore the
serious and ongoing threat faced by Officer Pittman.
Although I may never understand the risks that
officers face in the service of public safety, settled law
requires that I try. Because I cannot see how
Pittman’s actions were in any way unreasonable, I
respectfully dissent.
I.
My esteemed colleagues in the majority are surely
right in one respect. Police officers do overreach. And
when they do, the law must hold them to account.
This court’s decision in United States v. Slager,
decided only a few months ago, makes it clear beyond
question that police officers cannot apply force, and
certainly not unreasonable force, in response to every

33a
provocation. 912 F.3d 224, 237 (4th Cir. 2019). Officer
Slager badly abused his authority by firing on a
fleeing suspect and then lying about it afterwards.
The law imposed its consequences. Qualified
immunity, however, provides officers the “breathing
room to make reasonable but mistaken judgments.”
Stanton v. Sims, 571 U.S. 3, 5 (2013) (quoting Ashcroft
v. Al-Kidd, 563 U.S. 731, 743 (2011)). In other words,
an officer may employ force in a fraught situation to
forestall a deadly threat. That is all Officer Pittman
did.
Four years ago, the Supreme Court noted how
often it is called upon to reverse federal courts that
deny qualified immunity in excessive force cases:
“Because of the importance of qualified immunity ‘to
society as a whole,’ the Court often corrects lower
courts when they wrongly subject individual officers
to liability.” City & Cty. of San Francisco v. Sheehan,
135 S. Ct. 1765, 1774 n.3 (2015) (collecting cases)
(quoting Harlow v. Fitzgerald, 457 U.S. 800, 814
(1982)).
The Court’s view on the importance of qualified
immunity has not wavered. Each year, it has
continued to issue opinions, often per curiam,
reversing a denial of qualified immunity in an
excessive force suit. See, e.g., City of Escondido v.
Emmons, 139 S. Ct. 500 (2019) (per curiam); Kisela v.
Hughes, 138 S. Ct. 1148 (2018) (per curiam); White v.
Pauly, 137 S. Ct. 548 (2017) (per curiam); Mullenix v.
Luna, 136 S. Ct. 305 (2015) (per curiam). In some
cases, lower courts erred by defining the
constitutional right at such a high level of abstraction
that no conduct whatsoever was protected by the
immunity. See, e.g., Mullenix, 136 S. Ct. at 308. At
other times, courts have erred in applying the

34a
immunity standard, either by assessing the officer’s
conduct without regard to the facts on the ground, see,
e.g., Kisela, 138 S. Ct. at 1153, or wrongfully finding
a “genuine” dispute of fact, see, e.g., Scott v. Harris,
550 U.S. 372 (2007). The Supreme Court has been
forced into the fray to prevent the total erosion of
qualified immunity.
At some point a pattern of Court decisions becomes
a drumbeat, leaving one to wonder how long it will
take for the Court’s message to break through.
Perhaps the Court’s patience on this point is endless,
because, golly, it has been so sorely tried. The failings
that have been so routinely documented by the
Supreme Court rear their head once again. The
majority has used the summary judgment standard
once more to eviscerate qualified immunity
protections. In the majority’s hands, every dispute
becomes genuine and every fact becomes material.
Qualified immunity fades to the end of every
discussion, its values reserved for lip service until
little enough is left. The result? The majority has
ignored Supreme Court precedent, somehow finding
Pittman’s actions to save his own life something our
Constitution cannot condone.
II.
This case comes to us at the summary judgment
stage and a suit can only proceed if some material fact
is “genuinely” disputed. Although it may not be clear
from reading the majority opinion, awards of pre-trial
dismissals are crucial to the utility of any immunity.
The Supreme Court has repeatedly emphasized that
qualified immunity “is an immunity from suit rather
than a mere defense to liability; and like an absolute
immunity, it is effectively lost if a case is erroneously

35a
permitted to go to trial.” Mitchell v. Forsyth, 472 U.S.
511, 526 (1985). If a case goes to trial when a valid
basis for summary judgment exists, the entire
purpose of the immunity is thwarted. The majority
belies all of this teaching in repeatedly referring to
this case as at an “early stage of the litigation,” Maj.
Op. at 10, thereby betraying its view that these sorts
of cases should be resolved at a later, rather than
earlier, point in time. But the more litigation the
merrier is not at all what qualified immunity is about.
The majority portrays this case as a one-on-one
swearing contest between Harris and Pittman, but it
is hardly that. My colleagues here are willing to rest
their decision on a conclusory version of the facts
offered by Harris, which is not only unsupported by
the whole record, but flatly contradicted by it.
Controlling precedent, however, simply does not allow
the majority to turn a blind eye to the stark
weaknesses in the plaintiff’s claim. The requirement
that there be a “genuine” dispute to get to trial should
not be too high a barrier for plaintiffs, but it should
not be an open door either. Harris has not done nearly
enough to show a “genuine” dispute in this case, and
his version of events should be rejected.
Many of the facts offered by Officer Pittman are
not disputed. Given that Harris offered very few facts
of his own and previously pled guilty in state court to
assaulting Officer Pittman, this is unsurprising. The
parties agree that Harris fled after Pittman told him
to stop, jumping a fence and ignoring multiple
warnings. They also agree that the parties were
engaged in a violent ground altercation, that there
was a struggle for Pittman’s gun, and that the first
gunshot that struck Harris in the torso was fired in
the course of the fight. Opening Br. at 3-4; Resp. Br.

36a
at 4-8. The majority acknowledges this broad
agreement between the parties, which demonstrates
beyond any doubt that Officer Pittman was involved
in an incident that might well have taken his life. Maj.
Op. at 3-4.
The parties’ accounts diverge on what happened in
the final seconds of the fight, when the last shots were
fired. Pittman alleges that he fired all of the shots in
quick succession while Harris was standing over him,
after telling him to get down. On his view, he was
lying on the ground, physically exhausted and
wounded, facing a suspect who was much larger than
himself and who had just attempted to shoot him in
the head with his own gun. We do not, of course,
simply take Pittman’s word for it. But Pittman’s
account of events not only comes from his own
statement, but also has ample support in the record,
including forensic evidence, witness statements, and
photos taken at the crime scene. It is also consistent
with the facts that Harris already accepted in his
earlier state court plea. For his part, Harris alleges
that Pittman fired on him once he fell to the ground,
after he was already incapacitated by the earlier shot.
Harris offers only his own affidavit to support his
version of the facts.
The Supreme Court’s decision in Scott v. Harris
tees up this case perfectly. 550 U.S. 372 (2007). In
Scott, the Court was also confronted by two wildly
divergent accounts of the facts, one of which was
provided by a plaintiff who offered no more than his
own affidavit to support his claim. Even though the
facts of the case were disputed at the summary
judgment stage, the Court noted that what mattered
was whether the dispute was “genuine,” not merely
contested. “When opposing parties tell two different

37a
stories, one of which is blatantly contradicted by the
record, so that no reasonable jury could believe it, a
court should not adopt that version of the facts for
purposes of ruling on a motion for summary
judgment.” Id. at 380.
The majority abruptly dismisses Scott, terming it
an “exception, not the rule.” Maj. Op. at 18. But the
Court in Scott had in mind an affidavit just like the
one submitted by Harris, which offers little more than
conclusory assertions and wild accusations. Harris at
various times accuses the police (without support) of
falsifying DNA evidence and lying about which
officers were at the scene. J.A. 51, 57. He then asserts
that he never grabbed Officer Pittman’s gun and
never initiated contact with him. Id. at 43. And most
critically, he alleges that the final shots were fired
long after he fell to the ground. Id. at 41-43.
Harris’s view may fit well with the prevailing
social discourse, but it does not fit at all with the
evidence. Unfortunately for my majority colleagues,
who casually accept Harris’s affidavit full stop, the
record in this case undermines his story at nearly
every turn. Harris’s DNA was found on Pittman’s
weapon, belying any claim that he never grabbed the
gun. J.A. 303-304. Forensic evidence demonstrates
that the gunshot that injured Harris’ hand was fired
while the gun was holstered, further showing that he
was grabbing for the weapon during the fight. Id. at
62, 252. Witnesses who heard the encounter recalled
hearing a single shot, followed later by a series of
shots fired in rapid succession. Id. at 59. This stands
in stark contrast with Harris’ contention that the
second shot was followed by a long pause, such that
Pittman would know for sure that Harris no longer
posed a threat.

38a
As if this evidence from the scene were not enough,
Harris, in the course of pleading guilty to assaulting
Pittman, admitted in state court that he fought over
the gun. In fact, he admitted trying to shoot Pittman
in the head, and only failing because the gun misfired
in the holster. J.A. 169. He also admitted in his plea
proceedings to hearing “get down, get down” in the
moments before the final shots, demonstrating that
he was still standing at the time. Id. at 168. There is
simply no way that a reasonable juror could look at an
account so devoid of independent factual
development, so full of unsupported accusations, and
so weakened by blatant contradiction in the record
and walk away with the sense that Harris’s version of
events is accurate, or in any way compelling. Scott
recognizes that while the non-moving party’s burden
of showing a “genuine” dispute is not an onerous one,
it cannot rest solely on such a flimsy foundation.
Without additional support in the record, the decision
in Scott requires that we adopt the version of events
that is supported by objective record evidence.
By this objective standard, taken not just from
Pittman’s account but from the record in its entirety,
Pittman’s actions were altogether reasonable. He
fired on Harris while Harris was standing over him
during an ongoing violent altercation. Moments
earlier, his life was only spared by a misfiring gun.
This court has never suggested that an officer is
forbidden from taking action, including lethal action,
to save his own life in such a situation. To the
contrary, it is clearly established that he may do
exactly that. See White, 137 S. Ct. at 550; Elliott v.
Leavitt, 99 F.3d 640, 642 (4th Cir. 1996).
The majority finds otherwise only by looking to
cases far afield from the facts actually faced by Officer

39a
Pittman. To be sure, there are prior cases in this
circuit in which a use of force was reasonable one
moment but was unreasonable in the next. See
Brockington v. Boykins, 637 F.3d 503 (4th Cir. 2011);
Waterman v. Batton, 393 F.3d 471, 476 (4th Cir.
2005). From these cases it is evident that, as a general
matter, an officer’s use of force must be examined at
the moment it takes place. The district court did not
disagree with that proposition, nor do I. What
mattered in our prior cases, however, and what ought
to matter here, is whether the risk facing the officer
was still present when force was used. In Waterman,
officers continued to fire on a car after the “vehicle
passed the officers,” 393 F.3d at 480, while the officer
in Brockington fired additional gunshots after the
plaintiff “fell off the porch onto the concrete backyard
below,” 637 F.3d at 507. Neither case bears any
resemblance to the one here. In this case, Pittman
was in an isolated patch on a dark night. He was
indisputably facing a man who had struggled to grab
his weapon, sought by his own admission to shoot him
in the head, fought through taser wire, ignored an
order to “get down, get down,” and had earlier
disregarded clear warnings to stop. There was no
break in the action. Pittman could well and
reasonably believe that he was faced with a mortal
threat and he was permitted to respond accordingly.
It may be that one day this court will openly
announce what is implicit here: a rule of
constitutional law that subjects a police officer to
liability for trying to save his life. I rather doubt,
however, that our founding document forces officers
to play roulette with their own existence. All we have
ever needed to resolve this case is the recognition that
no such unfeeling rule currently exists. Qualified

40a
immunity shields all but those are “plainly
incompetent or . . . knowingly violate the law,” Malley
v. Briggs, 475 U.S. 335, 341 (1986), and Officer
Pittman is clearly not deserving of either label. He
has violated no clearly established right, or any other
right for that matter, and he is entitled to immunity.
III.
Interactions between citizens and police continue
on
edge,
and
minority
communities
and
neighborhoods have justly felt that race brings with it
an unwarranted presumption of wrongdoing. The
Fourth Amendment, invaluable as it is, is but an
imperfect check on the invisible hand of
discriminatory enforcement. These grievances are
now rightly garnering increased attention, but
attention to one side of a fraught equation raises the
risk that the other side will be neglected.
And there is another side. “Nationwide, interest in
becoming a police officer is down significantly.” See
Tom Jackman, Who Wants to be a Police Officer? Job
Applications Plummet at Most U.S. Departments:
Perceptions of Policing, Healthy Economy Contribute
to Decreased Applications at 66 Percent of
Departments, Wash. Post (Dec. 4, 2018) (“Recently,
[Chuck Wexler, head of the Police Executive Research
Forum,] asked a roomful of chiefs to raise their hands
if they wanted their children to follow them into a law
enforcement career. Not one hand went up.”). While
this drop has many causes, unwarranted disrespect
for the police profession is surely one.
Police work, like the calling of many a skilled
tradesman, has often been handed down through the
generations in America, but self respect depends in
part upon societal respect, and that for officers is

41a
sadly ebbing. Court decisions that devalue not only
police work but the very safety of officers themselves
risk severing those bonds of generational
transmission that have so sustained the working
classes of our country. It is a shame, because
professional police work helps to bridge the gulf
between the haves and have nots in a community and
protects our most vulnerable and dispossessed
populations. Law must sanction officers who would
abuse their power or disregard controlling law; it
should not scare off those who worry that no matter
what they do or whom they protect, they cannot avoid
suits for money damages.
When Officer Pittman emerged from that tree line,
“gasping for air and . . . in physical pain,” J.A. 250, he
ought to have been greeted with respect. Instead he
has been pulled from one fight and thrust into
another, this time in a courtroom. The district court
in this case applied our precedent faithfully and the
officer here showed conspicuous courage. I cannot join
a decision that engineers such a perverse punishment
for his actions and tells future officers that they
cannot preserve their very lives without having their
conduct assessed through the uncomprehending lens
of hindsight.
The second-guessing will have no end. If not now,
never.

42a
[ENTERED SEPTEMBER 25, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
NORTH CAROLINA WESTERN DIVISION
NO. 5:13-CT-3087-BO
HERMAN HARRIS,

)
)

Plaintiff,

)
)

v.

)

ORDER

)
ZACHERY PITTMAN,

)
)

Defendant. )
The matter comes before the court on
defendant's third motion for summary judgment
(DE 97) pursuant to Federal Rule of Civil Procedure
56 and motion to strike (DE 117). Also before the
court are plaintiff s motions to appoint counsel (DE
84, 90, 112). For the following reasons, the court
grants defendant's motion for summary judgment,
denies defendant's motion to strike, and denies
plaintiff s motions to appoint counsel.
STATEMENT OF THE CASE
On April 18, 2013, plaintiff Herman Harris
("plaintiff ') filed this civil rights action pro se, on an
unverified complaint, pursuant to 42 U.S.C. § 1983.
Plaintiff alleged that defendant Zachery Pittman

43a
("Pittman" or "defendant"), a police officer in the
Fayetteville Police Department, violated his
constitutional rights pursuant to the Fourth
Amendment to the United States Constitution by
using excessive force against him. As relief, plaintiff
seeks compensatory and punitive damages as well as
a declaratory judgment. Defendant subsequently
filed his first motion for summary judgment,
which was denied without prejudice on August 28,
2014, because plaintiff was permitted to amend his
complaint and did submit a verified amended
complaint. Defendant then filed his second motion
for summary judgment and asserted the affirmative
defense of qualified immunity. On February 22,
2016, the court granted defendant's second motion
for summaryjudgment. Plaintiff appealed.
On September 1, 2016, the United States Court
of Appeals for the Fourth Circuit issued an order
providing the following:
The parties offered different versions of the
salient facts surrounding Pittman's arrest. In
particular, Harris' and Pittman's versions of
events critically differ over what occurred
when Pittman fired the final shots at Harris
(e.g., whether Harris was standing or lying
down). Thus, the question for the district
court was whether, construing the facts in the
light most favorable to Harris (i.e., Harris was
lying on the ground when Pittman, still on top
of him, fired the final shots), a reasonable
officer would have probable cause to believe
that Harris posed a significant threat of death
or serious physical injury to the officer or
others.

44a
Harris v. Pittman, 668 F. App'x 486, 487 (4th Cir.
2016) (citing Tennessee v. Garner, 471 U.S. 1, 3
91985). Based upon the foregoing, the Fourth
Circuit vacated the court's February 22, 2016,
judgment and remanded the action "to determine, in
the first instance, if construing the salient facts in the
light most favorable to Harris, Pittman is entitled
to qualified immunity." Id. Plaintiff subsequently
filed two motions to appoint counsel.
On January 6, 2017, defendant filed his third
motion for summary judgment arguing that
plaintiff is unable to establish a constitutional
violation or, alternatively, that defendant is
entitled to the affirmative defense of qualified
immunity. As part of hisinotion, defendant filed an
appendix
which included affidavits from
defendant as well as Fayetteville Police Officers
Jeremy Glass ("Glass"), Ronnie Rivera ("Rivera")
(now aNew York City police officer),Alan Comer
("Comer"), and Pedro Orellano ("Orellano").
Orellano attached various exhibits to his affidavit.
Plaintiff subsequently filed another motion to
appoint counsel, as well as two responses to
defendant'smotion
for summary judgment.
Defendant replied and filed a motion to strike
plaintiff s second response to defendant's motion
for summary judgment. On September 20, 2017,
the court conducted an evidentiary hearing, and
heard oral argument on defendant's motion for
summary judgment.
STATEMENT OF FACTS
Except as where otherwise noted below, the
undisputed facts are as follows. Plaintiff's action arises
out of a struggle that ensued while Pittman, a

45a
Fayetteville Police Department officer, attempted to
apprehend plaintiff on August 26, 2012. On such date,
Glass, another Fayetteville. Police Department officer,
located a vehicle which he suspected was the same
vehicle which had been reported stolen the previous
evening. (Glass Aff. ¶ 4, 5). Glass observed that the
lights on the inside of the car were still bright and
detected a gas/exhaust odor, which lead him to
believe that the vehicle had been recently abandoned
(Id. ¶ 5). Glass then advised officers in the area, at
approximately 9:00 p.m., to be on the lookout for the
suspects described as early to mid-teenage black
males. (Id. ¶ 6; Pittman Aff. ¶ 3). Another officer,
Rivera, saw plaintiff and identified him as a
potential suspect and advised his fellow officers
that he would pursue plaintiff. (Rivera Aff. ¶ 6).
Pittman, also in the area during this time,
observed plaintiff climb a fence into the Kings
Cross (Ivanhoe Court) Apartments, which were
located across from the Westlake Apartments.
(Pittman Aff. ¶ 7). Pittman then radioed that
plaintiff was going toward Ivanhoe Court. (Id.)
Pittman exited his vehicle and called out "Stop,
police!" (Id.) After exiting his vehicle, Pittman
chased plaintiff through a breezeway in between
buildings in the apartment complex. (Id.) While in
the breezeway, plaintiff slowed down as if he was
looking for an avenue to escape. (Id.) Pittman, who
was gaining on plaintiff, yelled to plaintiff that he
would tase plaintiff in order to prevent him from
fleeing. (Id.) Plaintiff continued to flee. (Id.)
Pittman subsequently reached plaintiff as
plaintiff was attempting to escape into the woods
surrounding the apartment complex. (Id. ¶ 8; (DE
102), Attach. pp. 27-28). Pittman caught hold of

46a
plaintiff and both men fell approximately five feet
downhill into a wooded area. (Id. ¶¶ 8-9). As the
men were falling, plaintiff punched Pittman in the
face twice. (Id. ¶ 9). When the men stopped falling,
plaintiff was on his back, face to face with Pittman.
(Id.) At that point, Pittman warned plaintiff that
he was going to tase him and attempted to do so,
but was unable to incapacitate plaintiff. (Id.)
When Pittman activated the taser, both he and
plaintiff were affected by the discharge. (Id.) As
aresult, Pittman could not use his taser to his
advantage. (Id.) After the original five second taser
discharge ended, plaintiff took the taser out of
Pittman's hands and held it out of Pittman's reach.
(Id. ¶ 11). Plaintiff again pulled the taser trigger
and another five-second electric current was
delivered to both plaintiff and Pittman. (Id.)
Plaintiff disputes that he ever attempted to gain
control of the taser or that he ever operated the
taser. ((DE 38-1), p. 18). Plaintiff's DNA was not
found on Pittman's taser or the taser's holster.
(Orellano Aff. Ex. D).
As Pittman struggled to retrieve his taser from
plaintiff, Pittman noticed that plaintiff's hands were
on Pittman's gun, and that plaintiff was pulling
for the gun in an attempt to get it out of Pittman's
holster. (Pittman Aff. ¶ 12). Pittman thought to
himself: "This guy's trying to kill me. He's not
trying to get away; he's trying to kill me." (Id.) In
an attempt to retrieve his firearm, Pittman began
choking plaintiff. (Id. ¶ 13). Inresponse, plaintiff
took one of his hands off of the firearm and
attempted to choke Pittman. (Id.) Pittman then
released plaintiff s throat and again began using
both of his hands to secure full control of the firearm.

47a
(Id.) As the men were fighting for the gun, the gun
discharged while in Pittman's holster. (Id. ¶ 15).
After the gun discharged, the men continued to
fight over the weapon, which then came out of
Pittman's holster. (Id. ¶ 16). Both plaintiff and
Pittman's hands were on the gun, and plaintiff bit
Pittman twice in an attempt to get Pittman to
release the gun. (Id.) Pittman states that, at that
point, he had his hands on the weapon, and
determined that the muzzle was pointed in the
direction of his head. (Id. ¶ 17). As Pittman attempted
to push the muzzle of the gun away from his head, he
heard the gun click. (Id.) The gun had malfunctioned
or misfired when plaintiff pulled the trigger because
there was still an un-ejected shell casing in the
weapon from when it had discharged in Pittman 's
holster. (Id.) The men continued to struggle over
the weapon. (Id.)
Ultimately, Pittman was able to gain control of
his gun, and then immediately performed a
malfunction drill to reactivate the weapon. (Pittman
Aff. ¶ 18). When Pittman activated his gun's light,
he states that plaintiff was standing a few feet
away. (Id.) Pittman attests that, due to the
darkness, he could only see plaintiff s silhouette
from the belly button down and could not see
plaintiff's hands or face. (Id.) Pittman further attests
that he was not certain whether plaintiff was going
to attack him again, and feared a further attempt on
his life by plaintiff. (Id.) Pittman states that he was
completely exhausted and unable to stand because
he had become more and more ensnared in the
vegetation as the struggle went on. (Id. ¶ 19).
According to Pittman, he knew that he could not
overcome other attack by plaintiff, and, fearing for

48a
his life, fired his weapon at plaintiff. (Id. ¶¶ 20, 21).
Pittman states that, pursuant to his law enforcement
training, he fired until he observed plaintiff fall to
the ground. (Id. ¶ 21).
According to plaintiff's version of events,
Pittman stated "Mother [] I ought to kill you," as he
fired his weapon at plaintiff. ((DE 38-1), p. 10).
Plaintiff states that the "first shot severed [his]
right hand ring finger . . . "as he held it up in a
defensive position." (Compl. Attach. ¶ 10). The
second shot entered plaintiff's abdomen, and the
third shot entered plaintiff's upper right torso. (Id.)
According to plaintiff, plaintiff was lying on the
ground before the final shot was fired. ((DE 38-1),
pp. 13-14; ((DE 111), Mem. in Supp. p. 8). Plaintiff
denies that he attempted to gain control over
Pittman's weapon or that he ever fired the weapon.
((DE 38-1, p. 18). However, plaintiff's DNA was
found on the trigger and grip of Pittman's weapon.
(Orellano Aff. Ex. D).
Officer Comer responded to the Kings Cross
apartments after he heard Rivera call for assistance
over the radio ten times, with no response. (Comer
Aff. ¶ 9). Upon arrival, Comer observed Pittman
come out of the wood line and fall to the ground.
(Id. ¶¶ 16-17). Comer approached Pittman and
saw that he was physically exhausted, and it appeared
to Comer that Pittman had been in a tough fight. (Id.
¶ 17). Comer observed that Pittman's taser cartridge
was separated from his x-26 taser which was lying on
the ground. (Id. ¶ 18). The taser wire was wrapped
around Pittman. (Id.) As a result of the incident,
Pittman suffered facial injuries, a swollen right eye,
and scratches to his face. (Id. ¶¶ 31-32; Orellano Aff.
Ex. C).

49a
At some point, Forensic Technician Mary
Earnhardt ("Earnhardt") arrived and began to
process the scene. (Comer Aff. ¶ 33). Comer walked
Earnhardt to the wood line and showed her the
location of the incident. (Id.) Approximately three to
five feet down the hill, Comer and Earnhardt
located four silver casings, Pittman's name tag, as
well as clothing which possibly belonged to plaintiff.
( Id.) Near the spent shell casings, Comer saw a small
piece of black plastic which appeared to be a part of
Pittman's handgun holster. (Id.) When Pittman
examined his firearm holster after the incident, a
piece of black plastic was missing, and a screw was
hanging loose. (Pittman Aff. ¶ 23).
At some point, Comer spoke with Ms. Rachel
Locey, a resident in the nearby apartment complex.
(Comer Aff. ¶ 34). Ms. Locey told Comer that she
called the police because she heard four shots behind
her apartment building. (Id.) Specifically, she stated
that she heard a gunshot when she was about to go
to bed, and after an approximately 30 second pause,
heard three more gun shots and someone yelling. (Id.)
Ms.Locey informed the officer that she could not
understand what was said and did not witness the
incident. (Id.) Orellano, a detective, then arrived at
the scene and spoke with additional residents of the
apartment complex. (Orellano Aff. ¶ 5, 6, 9). Orellano
spoke with David Rogler who stated that he heard a
shot and then, a few seconds later, heard additional
shots. (Id. ¶ 5). Those residents also indicated that
they heard the gunshots and the deployment of a
taser. (Id.)
On August 28, 2012, Orellano and Detective
James Walker interviewed plaintiff at the Cape
Fear Valley Hospital. (Orellano Aff. (DE 56) ¶ 10).

50a
Orellano explained to plaintiff that he was not
under arrest, and that they were there to get the
facts about the shooting incident. (Id.) Plaintiff
agreed to talk to the detectives, but states that the
detectives did not tell him that he did not have to
speak to them. (Id.; (DE 38-1, p. 5)). Inthe course of
the interview, plaintiff admitted to hearing
Pittman telling him to "freeze" while he was jumping
the fence, but did not stop because he thought he
could outrun Pittman. (Orellano Aff. (DE 56) ¶ 13).
Plaintiff also admitted to struggling with Pittman,
taking the taser leads from his body, and resisting
arrest. (Id. ¶ 14). At the conclusion of his
investigation, Orellano obtained warrants against
plaintiff for attempted first-degree murder and
assault of a law enforcement officer with a firearm.
(Id. ¶ 40). On January 16, 2015, plaintiff pleaded
guilty, pursuant to North Carolina v. Alford, 400
U.S. 25 (1970), to assault of a law enforcement
officer with a firearm, possession of a firearm by a
felon, and attaining the status of a habitual felon
in the Cumberland County Superior Court. (Plea
Hr'g Tr. (DE 56) pp. 3-7, 28-29).
DISCUSSION
A. Motion to Strike
Defendant moves to strike plaintiff's second
response to defendant's motion for summary
judgment. The court has reviewed the motion
under the governing standard and declines to
strike the filing. Fed. R. Civ. P. 12(f); see, e.g.,
Waste Mgmt. Holdings. Inc. v. Gilmore, 252 F.3d
316, 347 (4th Cir. 2001); Hill v. Robeson Cty., 733
F. Supp. 2d 676, 690 (E.D.N.C. 2010). Thus, the
court denies the motion.

51a
B. Motions to Appoint Counsel
Plaintiff seeks the appointment of counsel
stating that his incarcerated status and lack of
access to a law library impede his ability to litigate
this action. Generally, there is no constitutional
right to counsel in civil cases, and courts should
exercise their discretion to appoint counsel for pro
se civil litigants "only in exceptional cases." Cook
v. Bounds, 518 F.2d 779, 780 (4th Cir. 1975). The
existence of exceptional circumstances justifying
appointment of counsel depends upon "the type
and complexity of the case, and the abilities of
the individuals bringing it." Whisenant v.
Yuam, 739 F.2d 160, 163 (4th Cir. 1984),
abrogated on other grounds by Mallard v. U.S.
Dist. Court for the S. Dist. Of lowa, 490 U.S. 296
(1989) (quoting Branch v. Cole, 686 F.2d 264 (5th
Cir. 1982)); see also Gordon v. Leeke, 574 F.2d
1147, 1153 (4th Cir. 1978) ("Ifit is apparent . . .
that a pro se litigant has a colorable claim but
lacks capacity to present it, the district court
should appoint counsel to assist him.").
Plaintiff has demonstrated through the detail of
his filings he is capable of proceeding pro se.
Additionally, plaintiff s claim is not complex and is
not one in which exceptional circumstances merit
appointment of counsel. See Pickens v. Lewis, No.
1:15-cv-275-FDW, 2017 WL 2198342, a t *1
(W.D.N.C. May 18,2017) (finding no exceptional
circumstances warranting appoint of counsel where
plaintiff alleged limitations due to incarcerated
status and lack of access to a law library). Therefore,
plaintiff s motions to appoint counsel are DENIED.

52a
C. Motion for Summary Judgment
1. Standard of Review

Summary judgment is appropriate when there
exists no genuine issue of material fact, and the
moving party is entitled to judgment as a matter of
law. Fed. R. Civ. P. 56(a); Anderson v. Liberty
Lobby, 477 U.S. 242, 247 (1986). The party seeking
summary judgment bears the burden of initially
coming forward and demonstrating an absence of a
genuine issue of material fact. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986). Once the moving
party has met its burden, the nonmoving party then
must affirmatively demonstrate that there exists a
genuine issue of material fact requiring trial.
Matsushita Elec. Industrial Co. Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986). There is no issue for
trial unless there is sufficient evidence favoring the
non-moving party for a jury to return a verdict for
that party. Anderson, 477 U.S. at 250.
2. Analysis

Defendant raises the affirmative defense of
qualified immunity in this § 1983 action.
Government officials are entitled to qualified
immunity from civil damages so long as "their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known." Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982). In other words, a government official
is entitled to qualified immunity when (1) the
plaintiff has not demonstrated a violation of a
constitutional right, or (2) the court concludes that
the right at issue was not clearly established at the
time of the official's alleged misconduct. Pearson v.
Callahan, 555 U.S. 223, 236 (2009). The court first

53a
determines whether defendant violated plaintiff s
constitutional rights.
Claims that law enforcement officers used
excessive force when making an arrest are
governed by the Fourth Amendment to the United
States Constitution and are analyzed under an
"objective reasonableness" standard. Graham v.
Connor, 490 U.S. 386, 388 (1989); Anderson v.
Russell, 247 F.3d 125, 129 (4th Cir. 2001). The
relevant question is "whether a reasonable officer in
the same circumstances would have concluded that
a threat existed justifying the particular use of
force." Elliott v. Leavitt, 99 F.3d 640, 642 (4th Cir.
1996). This standard mandates "a careful
balancing" of Fourth Amendment rights "against the
countervailing governmental interests atstake."
Graham, 490 U.S. at 396. Application of the
standard is highly fact dependent; factors to
consider include "the severity of the crime at issue,
whether the suspect poses an iediate threat to
the safety of officers or others, and whether he is
actively resisting arrest." Id. The reasonableness of
the force used "must bejudged from the perspective
of a reasonable officer on the scene, rather than with
the 20/20 vision of hindsight." Id. Thus,to establish
aviolation of a constitutionally protected right,
plaintiff must allege facts demonstrating that
defendant, used
force
in
an
objectively
unreasonable manner under the circumstances.
See id. Inmaking its determination with respect to
whether Pittman used excessive force, the court
must "view the reasonableness of the force in full
context, with an eye toward the proportionality
of the force in light of the totality of the

54a
circumstances." Yates v. Terry, 817 F.3d 877, 883
(4th Cir. 2016).
As an initial matter, plaintiff relies largely
on unverified documents to support his allegations.
Plaintiff has the burden to produce some evidence
which would create a genuine issue of material fact
in order to survive summary judgment. See
Celotex, 477 U.S. at 324 ("Rule 56(e) []requires the
nonmoving party to go beyond the pleadings and by
her own affidavits, or by the depositions, answers to
interrogatories, and admissions on file," designate
"specific facts showing that there is a genuine issue
for trial.") (internal quotations omitted). Generally,
unverified pleadings are not sufficient to withstand
an otherwise properly supported summary judgment
motion. See Williams v. Griffin, 952 F.2d 820 823
(4th Cir.1991); see also, Fed. R. Civ. P. 56(e); see.
e.g., Askins v. Belissary. No. 4:12-CV-1856-RBH,
2014 WL 507279, at *7 (D.S.C. Feb. 6i 2014) aff’d,
564 F. App'x 46 (4th Cir. 2014) (emphasis in original)
(referencing Fed. R. Civ. P. 56(c), (e)). Based upon the
foregoing, plaintiff has not met his burden of
producing some evidence to demonstrate a genuine
issue of material fact.
Even considering plaintiff s unverified
statements, he still fails to establish a constitutional
violation-that Pittman used excessive force. In
evaluating the Graham factors, the court first
considers the severity of the crime at issue. The
incident began when Pittman pursued plaintiff as
a suspect in connection with a stolen vehicle. While
there is no evidence that plaintiff had any
involvement with the alleged stolen vehicle,
plaintiff fled from Pittman when Pittman
approached to investigate. From that point

55a
forward, the severity of the crime began to escalate
when plaintiff punched Pittman twice, fought with
Pittman over the taser, and engaged in conduct
which lead Pittman to believe that plaintiff was
attempting to murder Pittman. Given the severity
of the offenses committed by plaintiff against
Pittman before Pittman fired the shots, the first
Graham factor weighs in plaintiff s favor.
The court next considers the second and third
Graham factors together-whether the suspect posed
an immediate threat to the safety of officers or
others, and whether he was actively resisting
arrest. There is no question that plaintiff was
actively resisting Pittman and posed a significant
and serious threat to both Pittman and the
community at large. For instance, the evidence in
the record shows that plaintiff refused direct orders
from Pittman to stop fleeing and engaged in,a
struggle with Pittman which caused both men to
fall into a dark wooded area. Plaintiff punched
Pittman in the face twice as the men fell over the
hill, and continued to struggle with Pittman after
the fall. (See (DE 102), Attach. pp. 27-28, 30-34). In
the course of the struggle, plaintiff attempted to gain
control over both Pittman's taser and gun. At that
point, Pittman believed that plaintiff was
attempting to discharge the weapon into Pittman's
head in an attempt to murder Pittman. Pittman's
belief is corroborated by the fact that plaintiff s
DNA was on Pittman's weapon and that Pittman's
weapon was fired into Pittman's holster. Based
upon the foregoing, and in light of plaintiff s
relentless attacks on Pittman, Pittman was
reasonable in his belief that plaintiff was actively
resisting arrest and posed a serious threat to

56a
Pittman and the community at large at the time
Pittman fired each of the shots at plaintiff.
To the extent plaintiff states that the final shot
was discharged while Pittman was standing over
plaintiff, the record reflects that the shots were fired
in rapid succession. (Comer Aff. ¶ 34 and Orellano
Aff. ¶ 5). The record further reflects that plaintiff
was relentless because he continued to attack
Pittman even after being struck by a taser on two
occasions. At the point Pittman fired the shots, he
was exhausted and did not believe that he could fend
off another attack. Notably, from the location of
plaintiff s wounds, it appears that Pittman intended
his shots only to disable plaintiff. Even when viewing
the facts in the light most favorable to plaintiff, the
record reflects that Pittman reasonably believed that
plaintiff would continue to attack Pittman at all
costs until Pitman was eliminated as a threat and
that plaintiff had been trying to kill Pittman. See
Elliott, 99 F.3d at 642 ("A police officer may use
deadly force when the officer has sound reason to
believe that a suspect poses a threat of serious
physical harm to the officer or others.") (citing
Garner, 471 U.S. 1); Clem v. Corbeau, 284 F.3d 543,
550 (4th ,Cir. 2002). As a result, the second and third
Graham factors weigh in favor of plaintiff. Thus,
plaintiff fails to establish a constitutional violation,
and Pittman is entitled to qualified immunity.
In an abundance of caution, the court proceeds
to the next step in the qualified immunity analysisdetermining whether Pittman's conduct violated a
clearly established statutory or constitutional right
of which a reasonable officer would have known. See
White v. Pauly, 137 S. Ct. 548, 551 (2017) (citing
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)). In

57a
making such determination, the United States
Court of Appeals for the Fourth Circuit has
provided as follows:
A right is sufficiently clearly established to
expose an official to liability if "every
reasonable official would have und.erstood that
what he is doing violates that right." [Mullenix,
136 S. Ct. at 308] (quoting Reichle v. Hoards,
__ U.S. __ 132 S. Ct. 2088, 2093, 182 L.
Ed.2d. 985 (2012)). "This is not to say that
an official action is protected by qualified
immunity unless the very action in question
has previously been held unlawful; but it is
to say that in the light of pre-existing law the
unlawfulness must be apparent." Anderson v.
Creighton, 483 U.S. 635, 640, 107 S. Ct. 3034,
97 L. Ed.2d 523 (1987) (citation omitted). We
evaluate whether the unlawfulness of a
particular violation was apparent "in light of
the specific context of the case, not as a broad
general proposition. " Mullenix, 136 S. Ct. at
308 (quoting Brosseau v. Haugen, 543 U.S.
194, 198, 125 S. Ct. 596, 160 L. Ed.2d 583
(2004) (per curiam)).
Connor v. Thompson, 647 F. App'x 231, 238 (4th Cir.
2016). The United States Supreme Court in White
further clarified that clearly established law cannot
"be defined at a high level of generality" but "must
be particularized to the facts of the case." White, 137
S. Ct. at 552. The Court further rejected the use of
the decisions in Garner and Graham as general
precedents for clearly established law, stating "we
have held that Gamer and Graham do not by
themselves create clearly established law outside an
obvious case." Id. (internal quotation marks and

58a
citation omitted)); see also Garner, 471 U.S. 1 (1985);
Graham, 490 U._S. at 386.
Here, although Pittman recovered his firearm
from plaintiff, the other attendant facts and
circumstances-Pittman's physical exhaustion, the
fact that Pittman believed plaintiff was attempting
to murder him, plaintiff's continued attacks on
Pittman, and the dark wooded surroundingssupport Pittman's reasonable belief that plaintiff
continued to present a threat to Pittman when
Pittman fired each of the shots at plaintiff in rapid
succession. See Elliott, 99 F.3d at 641, 644 (stating
that courts cannot expect a police officer to remain
passive in the face of an active threat and that
"[t]he Constitution simply does not require police to
gamble with their lives in the face of a serious threat
of harm."); ((DE 102), Attach. pp. 16-17); Maradiaga
v. Wilson, 518 F. Supp. 2d 760, 775 (D.S.C. 2007)
("[Officer] asserts that he shot plaintiff until he feel
to the ground. Even assuming Plaintiff's claim to be
true, [officer's] justification for using deadly force
against Plaintiff did not end when Plaintiff fell to
the ground."), aff'd, 272 F. App'x 263 (4th Cir.
2008); Estate of Rodgers ex rel. Rodgers v. Smith,
188F. App'x 175, 183 (4th Cir. 2006) ("The [Plaintiff]
further contends, however, that even if the use of
deadly force was justified when [the o]fficer . . . fired
the initial shots, that justification ended when
[plaintiff] fell to the ground. We disagree. The
reasonableness of an officer's actions rests on the
information possessed by the officer at the
moment force is employed."). Further, there is no
pre-existing case law particularized to the facts of
this case which provides that Pittman's conduct
violated clearly established law. See White, 137

59a
S. Ct. at 552 (stating that plaintiff must "identify a
case where an officer acting under similar
circumstances as [the officer at issue] was held to
have violated the Fourth Amendment."); Reichle,
132 S. Ct. at 2093 (stating that for a right to be
clearly established, it "mut be sufficiently clear that
every reasonable officer would [have understood]
that what he is doing violates that right.")
(internal quotations omitted). Rather, an officer,
such as Pittman, who shoots a suspect who has
attacked him repeatedly, failed to obey the officer's
commands, engages in conduct which leads the
officer to believe that he may be murdered, and
continues to behave in away that causes the officer to
believe that a continued attack is imminent is
protected by qualified immunity. Thus, Pittman is
entitled to qualified immunity and his motion for
summary judgment is GRANTED.
CONCLUSION
Based upon the foregoing, the court ORDERS as
follows:
(1) Defendant's motion to strike (DE 117) is
DENIED;
(2) Plaintiff s motions to appoint counsel (DE 84, 90,
112) are DENIED;
(3) Defendant's third motion for summary judgment
(DE 97) is GRANTED;
(4) The clerk of court is DIRECTED to close this case.

SO ORDERED, this the 22 day of September, 2017.
/s/ Terrence W. Boyle
United States District Judge

60a
[ENTERED JULY 10, 2019]
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
____________________
No. 17-7308
(5:13-ct-03087-BO)
____________________
HERMAN HARRIS
Plaintiff - Appellant
v.
ZACHARY PITTMAN,
Fayetteville Police Department
Defendant - Appellee
and
MOOSE BUTLER
Defendant
____________________
ORDER
____________________
Upon consideration of the petition for rehearing en
banc, the court denies the petition. No judge requested
a poll under Fed. R. App. P. 35.
Entered at the direction of the panel. Judge
Wilkinson voted to grant panel rehearing.
For the Court
/s/ Patricia S. Connor, Clerk

